<html>
<title> - 2020 CENSUS: EXAMINING COST OVERRUNS, INFORMATION SECURITY, AND ACCURACY</title>
<body><pre>[Senate Hearing 115-444]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-444

    2020 CENSUS: EXAMINING COST OVERRUNS, INFORMATION SECURITY, AND 
                                ACCURACY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            OCTOBER 31, 2017

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                    U.S. GOVERNMENT PUBLISHING OFFICE 
		 
29-659 PDF                WASHINGTON : 2019                 


























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
          Jennifer L. Selde, Senior Professional Staff Member
               Margaret E. Daum, Minority Staff Director
                    Phylicia Woods, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk































                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Heitkamp.............................................     2
    Senator Lankford.............................................    11
    Senator Hassan...............................................    14
    Senator Harris...............................................    16
    Senator Carper...............................................    19
    Senator Peters...............................................    21
    Senator Daines...............................................    23
Prepared statements:
    Senator Johnson..............................................    33
    Senator Heitkamp.............................................    34

                               WITNESSES
                       Tuesday, October 31, 2017

Hon. Wilbur L. Ross Jr., Secretary, U.S. Department of Commerce; 
  Accompanied by Ron S. Jarmin, Ph.D., Acting Director, U.S. 
  Census Bureau..................................................     4
Hon. Eugene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office..........................     6

                     Alphabetical List of Witnesses

Dodaro, Hon. Eugene L.:
    Testimony....................................................     6
    Prepared statement...........................................    40
Ross, Hon. Wilbur L.:
    Testimony....................................................     4
    Prepared statement...........................................    35

                                APPENDIX

Chart submitted by Senator Johnson...............................    79
Chart submitted by Senator Johnson...............................    80
Letter submitted by Senator Johnson..............................    81
Letter submitted by Senator Carper and Senator Harris............    85
Charts submitted by Mr. Ross.....................................   102
Statements submitted for the Record:
    Asian Americans Advancing Justice............................   105
    American Federation of Government Employees, AFL-CIO.........   123
    Leadership Conference on Civil and Human Rights..............   125
    NETWORK Lobby................................................   133
    National Urban League........................................   135
Responses to post-hearing questions for the Record:
    Mr. Ross.....................................................   141
    Mr. Dodaro...................................................   205

 
    2020 CENSUS: EXAMINING COST OVERRUNS, INFORMATION SECURITY, AND 
                                ACCURACY

                              ----------                              


                       TUESDAY, OCTOBER 31, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Daines, Carper, 
Tester, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. This hearing will come to 
order. We are assembled here to review the 2020 Census: 
Examining Cost Overruns, Information Security, and Accuracy.
    I want to thank our witnesses for their testimony and for 
their time appearing here before us.
    We have two simple charts. I will keep my opening statement 
brief. I will ask consent to enter my written statement in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    The first chart--if we have somebody willing to put it up. 
It is basically the Census cost since 1970 where in inflated 
dollars, we spent about $1.2 billion.\2\ This year--and 
Secretary Ross will testify to this--we will spend about $15.6 
billion, which is an increase of $3.4 billion over the estimate 
from October 2015, slightly less than the $17.5 billion had we 
used the 2010 methodology. I guess you could say we are making 
progress.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    If you just take the $1.2 billion we spent in 1970--and, 
Secretary Ross, this is my business background; this is the way 
I would do it in a budget review session--and just grow the 
cost by population--we have gone from about 200 million to 
about 320 million people--it would be about a $1.9 billion 
cost. If you grew it by an increase--because it is about a 56 
percent increase in population. If you grew an increase of 
households, which has basically doubled, it would be $2.4 
billion, and we are looking at $15.6 billion.
    Another way of looking at that--next chart\3\--we are 
keeping him hopping--would be cost per household, and again, 
this is inflated dollars. It costs about $17 per household in 
1970. We are projecting about $107 per household.
---------------------------------------------------------------------------
    \3\ The chart referenced by Senator Johnson appears in the Appendix 
on page 80.
---------------------------------------------------------------------------
    Now, I realize response rate is down. There are a host of 
explanations, you could use to explain that, but it still begs 
the question: What has changed so dramatically from 1970 that 
the costs have increased so dramatically?
    As somebody who ran a business and got the incredibly 
voluminous business Census, I know I scratched my head and 
said, ``Why does the Federal Government need this much 
information, and how is it potentially used?'' Now, I think 
time is short. The U.S. Census was added to the high-risk list, 
and we will let General Dodaro really explain why that was, but 
I am just going to ask the question. What are we asking on this 
Census? Do we really need to ask this much? Can we pare this 
thing down kind of based on what we really need versus going 
way overboard? I have to believe some of the detail, some of 
the volume of the questions asked is certainly responsible for 
some of the cost overruns as well, but those are some of the 
issues I will be trying to explore during this hearing.
    With that, I will turn it over to our Ranking Member who by 
the way--I know I mentioned this in our morning meeting. I am 
happy to have Senator Heitkamp be our Ranking Member, but 
Senator McCaskill is not here because her husband suffered a 
severe heart attack. He is in the intensive care unit, so I 
just want everybody to keep Senator McCaskill and Joe and their 
family in your thoughts and prayers.

            OPENING STATEMENT OF SENATOR HEITKAMP\1\

    Senator Heitkamp. Thank you, Chairman Johnson.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Heitkamp appears in the 
Appendix on page 34.
---------------------------------------------------------------------------
    First, I would like to express my warmest wishes to Claire 
and her husband, Joseph. They are in our prayers, and we really 
are hoping for a swift and speedy recovery. I understand he is 
on the mend. We are getting good reports. I know Claire would 
be here if at all possible.
    Secretary Ross, Comptroller General Dodaro, thank you again 
for joining us today. This needs to be the first, I think, in 
the series of hearings concerning the Census Bureau and its 
plans for the 2020 Census. Simply put, the 2020 Census is in 
trouble. Budget uncertainty, canceled tests, increasing cost 
projections, and no Senate-confirmed Director are all signs of 
an operation that is teetering.
    We can still get it back on track, but we are running out 
of time. The lack of even a nominee for the Census Director 
position is very troubling, and I hope that lack does not 
indicate the priority that the Administration places on the 
constitutionally mandated Census.
    A critical concern to me and to my constituents are the 
canceled tests in Indian Country. Indian reservations provide 
unique challenges for the Census Bureau, such as historic 
distrust of the Federal Government, a lower likelihood of 
deliverable mail, and sparse population centers.
    As the 2020 effort began to ramp up, the effort looked 
good. Coupled with the goal of a tribal enrollment questions in 
2020, the Census Bureau determined two tests were necessary to 
adequately prepare for potential road blocks on the 
reservations and how we could have a more successful Census 
effort on the reservation. However, both of those tests were 
canceled, and there are no plans, to which I am aware of, to 
replace them with any sort of tests related to the challenges 
the Census will face in Indian Country. I think this is a 
mistake and risks the success of the 2020 Census in States, 
especially in the western United States.
    For too long, we have given Indian Country the leftovers. 
Members of these communities deserve to be counted where they 
reside, just like any other person. But, because of the choices 
made in Washington, it would be much more difficult to make 
sure that that happens.
    These concerns go way beyond tribal issues. From what I 
have seen, I am not sure the Census Bureau is generally 
prepared to do a very effective job in rural America 
nationwide.
    The planned tests focus more on urban and suburban regions. 
It is, of course, critical to get accurate counts there, but we 
have to make sure that the Census is prepared to meet the needs 
of rural America.
    There are also questions regarding contracting decisions 
and information technology (IT) security as we move forward and 
enumerate these techniques and these challenges.
    The integration and modernization of the IT systems of the 
Bureau and the mobile device bid protest are issues of 
particular interest and importance to our Ranking Member, 
Senator Claire McCaskill, and I know she would talk about them 
if she were here today.
    With that, I look forward to hearing from the witnesses on 
how we are going to get this turned around and get the 2020 
Census back on track.
    Chairman Johnson. Thank you, Senator Heitkamp.
    It is the tradition of this Committee to swear in 
witnesses, so if you all would stand and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Secretary Ross. I do.
    Mr. Dodaro. I do.
    Chairman Johnson. Please be seated.
    Our first witness is the Honorable Wilbur L. Ross Jr. He is 
the Secretary of Department of Commerce. Secretary Ross is 
accompanied by Dr. Ron Jarmin, who is the Acting Director for 
the U.S. Census Bureau. Secretary Ross will provide the oral 
testimony, and Dr. Jarmin is here to answer specific questions. 
Secretary Ross.

 TESTIMONY OF THE HONORABLE WILBUR L. ROSS JR.,\1\ SECRETARY, 
  U.S. DEPARTMENT OF COMMERCE; ACCOMPANIED BY RON S. JARMIN, 
           PH.D., ACTING DIRECTOR, U.S. CENSUS BUREAU

    Secretary Ross. Thank you, Chairman Johnson. Thank you 
also, Ranking Member, and I give my best condolences and hope 
everything turns out for the McCaskill family. I thank the 
whole Committee for your continuing support and oversight of 
the 2020 Census, a critical constitutionally mandated endeavor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ross appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    An efficient 2020 Census that provides a full, fair, and 
accurate count has been one of my highest priorities since 
being confirmed in February. I myself was an enumerator as I 
worked my way through business school. I have a strong 
appreciation for the responsibilities and the unique challenges 
of counting everyone in the United States once every 10 years, 
and it has been clear from my first day that the Census would 
be one of the most challenging aspects of the entire Commerce 
portfolio.
    I agree with the Members of this Committee. The Census is 
the bedrock upon which we construct our system of democratic 
representation. It provides for apportionment, redistricting, 
and the distribution of hundreds of billions of dollars of 
Federal funding.
    Accordingly, some of my first meetings after confirmation 
were with the Census staff, and my early concerns were 
heightened when only 2 months into my tenure, the Census Bureau 
suddenly announced a 40 percent cost overrun in the Census 
Enterprise Data Collection and Processing (CEDCaP) program.
    In terms of the broader Decennial Census, the prior 
Administration's last life-cycle cost estimate in October 2015 
was $12.5 billion. When testifying before Congress in June, I 
did not accept that figure. Instead, I vowed to return after a 
careful review with a newly vetted 2020 Census life-cycle cost 
that I could support. The results of that review bring me here 
today.
    On the whole, we found that the prior Administration 
provided overly optimistic assessments of both the ease of 
implementing new technologies and the cost savings they would 
provide. Also, most of their key contracts are on a time and 
materials basis, which are the most dangerous forms of 
contract.
    The prior Administration also failed to follow basic 
management practices, such as using certified cost estimators 
and checking estimates against actual cost. Their estimates, 
instead, were made by subject matter experts.
    We are working today closely with the Government 
Accountability Office (GAO) to address those failures and 
correct the record. This had led us to now project a life-cycle 
cost estimate of $15.6 billion. This increase includes 
contingency funding of $1.2 billion to address potential risks 
and associated challenges, such as national disasters, 
potentially lower self-response rates, the difficulty in cost 
of hiring 500,000 temporary workers in a tight labor market, 
and the complexity of developing and integrating multiple 
information technology innovations. Our $1.2 billion reserve, a 
contingency of 10 percent of the post-2018 budget, on top of 
the independent cost estimate level will be managed at the 
secretarial level.
    Our new life-cycle cost estimate includes a request for a 
$187 million adjustment for Fiscal Year (FY) 2018. These funds 
will allow us to make a significant course correction. The 
Census Bureau and the Department of Commerce will be held 
accountable.
    Commerce now conducts weekly 2020 Census oversight reviews 
and will require metric tracking and program execution status 
on a real-time basis. The Under Secretary for Economic Affairs, 
Karen Dunn Kelley, has been in place since late August, and she 
will have direct oversight over the 2020 Census.
    Seasoned senior management is also in place at the Census 
Bureau itself. Ron Jarmin, on my left, and Enrique Lamas are 
performing the nonexclusive duties and functions of the 
Director of the U.S. Census Bureau and the Deputy Director and 
Chief Operating Officer (COO), respectively. Each has nearly 
three decades of experience in Census.
    We are now just 30 months away from the 2020 Census. Many 
challenges lie ahead, and these additional resources are 
urgently needed, but with the management changes we have 
detailed and with the additional resources requested, I am 
confident we will have a full, fair, and accurate Census.
    I look forward to working with this Committee, your staff, 
and the rest of Congress over the months and years to come. I 
thank the Committee for the opportunity to come before you 
today, and I look forward to your questions.
    Chairman Johnson. Thank you, Secretary Ross.
    Our final testimony will be given by the Honorable Gene L. 
Dodaro. Mr. Dodaro has been the Comptroller General of the U.S. 
Government and Accountability Office since 2010 and has more 
than 40 years of experience at the agency, including as Acting 
Comptroller General, Chief Operating Officer and head of the 
Accounting and Information Management Division. General Dodaro.

  TESTIMONY OF THE HONORABLE EUGENE L. DODARO,\1\ COMPTROLLER 
 GENERAL OF THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman, Ranking 
Member Heitkamp, Members of the Committee. I am very pleased to 
be here today, but first, I would like to express and add my 
best wishes to Senator McCaskill and her husband for a speedy 
recovery.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    I am pleased to be able to talk about the preparations for 
the 2020 Census.
    We consider the 2020 Census among the highest management 
risks in the Federal Government for three main reasons. One, 
the Bureau is trying a number of innovations, such as Internet 
response, use of administrative records, and reengineering its 
field operations, and unfortunately, they have had to cancel 
some of the field tests. Senator Heitkamp mentioned some of 
those tests were intended to be done in the Indian areas, 
tribal areas, and others.
    Reduction of these tests leads to limitations on the 
confidence that the Bureau and Congress can have regarding 
these innovations and heightens the risk. That is issue number 
one.
    Issue number two is the difficulties, significant ones in 
implementing and securing IT systems. As of last August, for 
example, only 4 of the 43 systems Census was planning to use 
had completed development and testing. Now, there have been 
schedule delays. That results in a compressed schedule, and 
what we are really concerned about is that the main casualty of 
this will be not only potential problems in the operations but 
reduced testing for security. This is a particular concern 
because about 75 percent of the systems will contain sensitive 
information that needs to be safeguarded.
    The third reason we put the 2020 Census on the high-risk 
list had to do with the cost estimates. We did not believe 
there was a comprehensive and reliable cost estimate to 
complete the Census successfully. We did not deem the last cost 
estimate in 2015 reliable for a number of reasons. As soon as 
we get the full documentation from Commerce Department and the 
Census Bureau, we will review it to determine whether we 
believe the current estimate is reliable.
    Now, moving forward, there are a few things that are really 
important. One is sustained leadership attention. This is 
always the number one area that we look at in terms of getting 
off the high-risk list.
    I am very pleased that Secretary Ross has been focused on 
this and applied some additional resources on management teams, 
and conducted an independent cost estimate. I think that was 
very appropriate. I think the fact that the Bureau has 
increased the estimate by $3 billion shows that our prior 
assessment of the unreliability of the earlier estimate had 
merit.
    But there needs to be an appointed, Senate-confirmed leader 
not only for the Director of the Census Bureau. Also a Deputy 
Director is needed as well. I think that is very important 
going forward. There are a lot of difficult issues that will 
need to be dealt with, and having permanent leadership in place 
there will be very important.
    Second is the capacity. Right now, for example, the 
Government Program Management Office that is overseeing the 
contract integrator of all of the Census IT systems, has about 
60 percent vacancies in the positions there at that Office, and 
so this is going to be very important going forward.
    Also, I was pleased----
    Senator Carper. I am sorry. Would you just repeat that? 
Gene, would you just repeat that again? That is so alarming.
    Mr. Dodaro. There is a Government Program Management Office 
that is intended to oversee the contract integrator that was 
brought in to integrate these 43 systems for the operations. 
They have about 35 out of 58 positions unfilled. So, they have 
60 percent unfilled positions that they need to get in place, 
and this is very important, given we have had concerns about 
their management of IT practices going back prior Censuses as 
well. We remain concerned about that for this Census 
preparation as well.
    I was very pleased Secretary Ross has agreed to give high 
priority to implementing GAO's open recommendations. Over the 
last decade, we have made 84. Thirty-six have not been 
implemented. Fifteen, we consider priority recommendations, and 
they go to the heart of the reasons that we designated the 
Department high risk.
    I think you need leadership capacity. I commend this 
Committee for holding this hearing. I think it is very 
important to have regular congressional oversight, particularly 
over the next year and a half, because that is basically the 
window that you have to lock down the procedures for the 2020 
Census. Otherwise it will be too late to make last-minute 
changes.
    Unless these high-risk areas are addressed, I am concerned 
about not only the cost effectiveness of the Census but the 
quality of the count and its usefulness to meet the 
constitutional requirements.
    Thank you very much for the opportunity to be here today. I 
would be happy to answer questions.
    Chairman Johnson. Thank you, General Dodaro.
    Let me start with you. In terms of the three high-risk 
concerns, cost overrun, are you satisfied based on your 
dealings with Secretary Ross that we have a pretty good handle 
on the cost now?
    Mr. Dodaro. I will not be able to determine that until we 
see the documentation supporting the cost estimate. We had real 
concerns about the documentation with the 2015 estimate, and it 
did not meet best practices, any of the four practices that we 
test for. Also, some of the math could not be replicated, and 
supporting documentation was missing.
    I am hopeful that this estimate, since the Secretary 
brought in an independent cost team and bolstered the team, 
will be in better shape, but we will not know that until we 
have received all the supporting documentation and had a chance 
to carefully review it.
    I will commit to this Committee to get back to you once we 
have all the documentation and have reviewed it. We will give 
you our determination as to the reliability of the estimate.
    Chairman Johnson. I will be asking all three of you the 
same question: What is the single biggest risk? What is the 
thing that you are most concerned about with the 2020 Census?
    Mr. Dodaro. In addition to the cost, I am concerned about 
the security of the IT systems, particularly with the use of 
the Internet response. I have been before this Committee many 
times talking about cybersecurity issues and the threat it 
passes to agencies and citizens. There is the potential for 
people to misuse the Internet response rate to make the count 
be skewed, or there could be other mischief associated with it. 
I am very concerned about that. That is why the proper testing 
and development of the IT systems is important.
    I commend the Department for moving to use technology, and 
it has tremendous benefits to help them improve the count. But 
without proper security, I think there is a risk that would be 
unfortunate if it is exploited.
    Chairman Johnson. Secretary Ross, I think we all appreciate 
how you have certainly put the 2020 Census at the top of your 
priority list. Do you have any timeline in terms of when you 
will appoint--or the Administration will appoint a Director and 
Deputy Director?
    Secretary Ross. We are working on it quite actively. We had 
had one candidate for Director who went very far through the 
process, and then eventually the vetting did not work. We are 
now back to the drawing board, but we recognize the need for 
day-to-day management. What we are doing as a temporary 
substitution is we have brought in four outside consultants, 
two of whom had prior experience with the Census for many 
years, two of whom recently retired, International Business 
Machines (IBM) executives, who have very good experience with 
technology rollouts.
    Karen Dunn Kelley, who was confirmed in August, will be 
taking very direct charge of the Census. She is the new Under 
Secretary for Economic Affairs, and she is someone I have 
worked with for many years. She has managed very large and very 
complex organizations. Those are not obviously permanent 
substitutes for permanent management, but they are the best we 
can do, and I think they will work well.
    Also, the level of attention being paid to things is quite 
different. We do have a schedule of weekly meetings. We do have 
very intense sessions with the contractors themselves. I have 
had a bunch of them in already, and we have had some very, as 
the diplomats would say, frank and open discussions about the 
situation.
    But, I think it might be useful to give you a flavor, one 
for the technological evolution of the Census--and we have 
handed around these blue sheets, which will give you a feel for 
the complexity and the degree of change that is being 
inculcated from 2010 till the present. You can see virtually 
every aspect of the major functions in the Census is different 
from what it was. They all are trying to substitute technology 
for physical presence, and that is the whole theory that they 
had why they felt they could reduce the costs from what they 
otherwise would have been.
    But the other thing that you should focus on is the 
horizontal chart, the one labeled ``2020 Census.'' This to me 
is one of the problems, which is the very complexity of the 
structure that they are imposing.
    You will see here that there are about a dozen major 
contracts. Well, within each of those--take the Technical 
Integrator, which is one of the trickiest and most expensive 
functions.
    There is a vendor called TREX who in turn has 17 
subcontractors under it. Now, that is a pretty big task just to 
manage 17 subcontractors. If you look at the Census 
questionnaire Assistance function, the vendor there is GDIT, 10 
subcontractors. As you go through the list, what is involved in 
a 100-some-odd contractors, subcontractors to the 10 or 12 
general contractors.
    Chairman Johnson. Do you think that number of contractors 
and subcontractors is warranted?
    Secretary Ross. Well, I think what it adds is complexity.
    We, as you know, had nothing to do with the design of this 
whole thing, and we have examined the contracts. It is not easy 
to get out of any of these contracts, number one. Number two, 
many of them, even ones that are on a time and material basis, 
have very stiff cancellation penalties.
    Chairman Johnson. Again, coming from the private sector, 
maybe you would want to consult your deputy, Deputy Kelley in 
back of you.
    Is this how you would have designed it if you would have 
been in charge of trying to increase or improve the technology 
of the Census?
    Secretary Ross. No. I think complexity is the enemy of cost 
control.
    Chairman Johnson. But, you are saying it is too late at 
this point in time to back away from that complexity.
    Secretary Ross. It is totally too late.
    Chairman Johnson. Well, we ought to be looking ahead for 
the 2030 to do things----
    Secretary Ross. Yes. What we will do as we get through the 
2020, I promise you there will be a very thick volume of 
lessons learned, so at least there will not be the replication 
of the same kinds of mistakes that were made here.
    Chairman Johnson. OK. I am out of time. I want to stay 
within our 7 minutes, and I want Members and witnesses to stay 
within it. We can do several rounds.
    But I will go to Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    I continue to be concerned, Secretary Ross, about the lack 
of public trust and government, and I think that it has a 
dramatic effect on your ability to do the Census. Breaches from 
the Securities and Exchange Commission (SEC) or breaches from 
Equifax or security breaches play a huge and critical role, I 
think, in building public confidence.
    I share Gene's concern about cybersecurity and about 
whether people feel their data is, in fact, secure.
    When you consider that in April 2017, only 20 percent of 
the respondents in a Pew poll said that they trust the Federal 
Government all or most of the time.
    Considering the lack of public confidence, how can we 
convince anyone that they should turn information over to the 
Census Bureau, and what is the Census Bureau doing to 
overcome--you have identified a lot of tangible problems, 
structural problems, personnel problems.
    Secretary Ross. Right.
    Senator Heitkamp. The intangible problem that I am getting 
at is a lack of trust with the people that you are counting, 
and so how do we get over that intangible problem?
    Secretary Ross. Well, those are very good questions, and 
those are, frankly, questions that relate very much to why the 
costs are so high because the big cost is not the vast majority 
of the people, the easy-to-enumerate ones. Virtually all of the 
cost is dedicated toward the harder-to-enumerate people, harder 
to enumerate either because they are Native Americans on 
reservations, harder to enumerate because of language issues or 
harder to enumerate for a variety of cultural reasons.
    What are we doing about it? First of all, we have increased 
the communications budget to $500 million. That is way above 
the $350 million that was spent on it before. They have 
contracted with Young & Rubicam (Y&R) to be the overall general 
contractor for communications, and there are 20 different 
entities, some parts in Young & Rubicam, some outsiders, under 
that general rubric. Many of those are dedicated to very 
specific ethnic groups, very specific language groups, or very 
specific geographic groups.
    In addition, we are increasing quite a lot the money being 
expended on the partnerships with faith-based organizations and 
others in the various regions. We will have over 300,000 such 
community organizations that we are working with.
    Beyond that, we are experimenting with the idea of making 
better use of the U.S. postal system. The postal system 
historically has been the most reliable source of addresses and 
residences, but they have not historically used the postal 
system to actually do enumeration.
    We are running a test in Providence, Rhode Island, this 
spring where one of the things we will be testing is working an 
arrangement with the postal system staff so that after hours, 
they will work for us on our payroll and go door to door.
    Senator Heitkamp. You are talking, Secretary, about 
actually engaging with the mail carriers?
    Secretary Ross. Absolutely.
    Senator Heitkamp. Because they know their route. They know 
the addresses. They are able to help you.
    Secretary Ross. Absolutely. Often they know the people, but 
they also have a pretty good idea what is a vacant property and 
what is an occupied property, so that is one thing we are 
doing.
    Senator Heitkamp. Fascinating. Yes.
    Secretary Ross. The other thing we are going to be 
experimenting with again in Providence is putting kiosks in the 
postal system offices around the country to make another form, 
another easy place for people to fill out the questionnaires.
    We hope that better use of the postal system may also help 
to address the trust issue that you were talking about because 
nobody feels very threatened to have the mailman come to the 
door.
    Senator Heitkamp. This is probably a personal experience 
that maybe was not shared with everyone. I was a long form 
recipient, filled out the long form, mailed it in the last 
time. Then I started getting calls from a Census worker, and I 
was encouraged by a friend, said, ``She needs to make a living. 
Be nice. You can visit with her.'' And so I did, and at that 
point, she was asking me a lot of questions about how many 
devices I had in my house--cell phones, iPads, and I have a lot 
of that. She was pretty impressed.
    About halfway through, I thought, ``What has that to do 
with the Census?'' and she said, ``Well, we are gathering this 
additional statistical information for other vendors.'' I was 
like----
    Secretary Ross. For other what?
    Senator Heitkamp. For other contractors, people who had 
contracted with Census to gather this information.
    Secretary Ross. I do not believe that to be the case.
    Senator Heitkamp. It was remarkable--yes. I think that 
might have happened. It might have been a way to actually help 
pay for the Census. I do not know. Yes.
    Mr. Jarmin. It might have been a survey that we did for 
another agency on a reimbursable basis, so we do----
    Senator Heitkamp. Yes. That is my point, isn't it? My point 
is that under the guise of being a citizen, understanding a 
constitutional citizenship responsibility to actually 
participate in the Census, all of a sudden I am the data point 
in something that does not have do with counting.
    Mr. Jarmin. Right.
    Senator Heitkamp. These are the kinds of things. I raise 
this because it is the kind of thing that makes me go, ``What 
are you doing here?'' and it builds up a lack of confidence 
that the public would have with Census workers.
    I mean, she was just doing her job. I am not faulting her, 
but I was, quite honestly, struck. I think it is critically 
important that you think about these add-ons or these extras 
that you are doing in terms of data collection because it does 
negate the relationship that you have with the citizen.
    We have lots of questions about how this goes, Secretary. 
We sit here willing to help and understand and appreciate 
especially with special populations, and I know we will 
probably get another round, so I want to ask some questions 
about special populations. But, I want to applaud your answer 
in understanding that the bulk of people, you are going to find 
pretty easily, and it is the marginalized population that we 
need to work very hard at getting to cooperate and counted.
    I think he wants to comment.
    Secretary Ross. Two other things we are doing to try to 
build confidence, we will be trying to emphasize all the new 
things we are doing about cybersecurity. There are something 
like 39 upgrades of the cybersecurity from what had been done 
before, at least 24 of which are pretty strong improvements, 
and we have been working very actively with other parts of the 
Federal Government. We hope to communicate that to the public 
because people are very worried about personnel security.
    It seems as though you cannot pick up a paper without 
somebody being hacked, so we recognize that is a very serious 
problem. We are doing our best, A, to deal with it and, B, to 
publicize that we have dealt with it.
    The other thing I do not think they have done enough 
publicizing, the limitation on the use of the data, the Title 
13 responsibilities. I think we are going to try to emphasize 
those quite a bit so that people know that it will not be used 
for law enforcement. It will not be used to deport them. It 
will not be used for anything. It would just be used for the 
proper purpose, which is enumeration.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you. I appreciate all of you all on 
this. I am not going to surprise you all because we have had 
several conversations on this topic before.
    But when you talk about going door to door, the people that 
are most efficient to do that being the United States Postal 
Service (USPS), obviously, that is a wonderful addition. I have 
advocated for a long time.
    Around April 15th, there is also something that goes in the 
mail from almost every single American household. That would be 
their taxes. My question is, Where is the conversation going? 
What has been tested, evaluated, on whether when people turn 
their taxes in, they can also submit their Census data at the 
same time?
    Secretary Ross. We are having some discussions with the 
Internal Revenue Service (IRS) about that topic.
    Personally, I must confess I am not convinced that tying 
the Census to the tax form is going to improve the relationship 
between the Census Bureau and the American public.
    Senator Lankford. Will it improve the cost of over $100 per 
households to actually complete that in $16 billion?
    Secretary Ross. Well, I do not know.
    As I say, we are having discussions with the IRS about the 
feasibility of it. We will see.
    I doubt that we would be able to do it in time for 2020 
because we are too far along.
    Senator Lankford. Right.
    Secretary Ross. But that is no reason not to explore it and 
try to make sure we have a good understanding of it for the 
next Decennial Census.
    Senator Lankford. Do you have any thoughts on that? Have 
you all explored that as a possibility?
    Mr. Dodaro. We have not looked at that at all or studied 
that issue. I think it merits discussion.
    The one thing I would note, there is a group called the Tax 
Policy Center, and they estimate that about 17 percent of tax 
units really do not fill out or send in the tax form at all, so 
you would have to deal with that aspect of it. But, I think it 
should be tested.
    But, the one thing that I would urge the Congress to do, 
though, is to focus on the 2030 Census in 2021. I testified on 
preparations for the 1990 Census between 1985 and 1989 eight 
times, and every time this conversation comes up, about early 
focus on the next Census after the Decennial is over. But 
attention gets diverted toward other passing issues and the 
Administration and Congress lost that opportunity. Next thing 
you know, it is too late to make changes in the next round in 
the decennial cycle.
    Senator Lankford. Right.
    Mr. Dodaro. Passing some legislation requiring some 
planning by the Census Bureau and have some guaranteed funding 
for them up front to test these things out like the IRS option 
early in the 10-year cycle would be, I think, a good 
investment.
    Senator Lankford. I would say I share that. This is 
something I brought up to the Secretary of Commerce, obviously 
before you were here, 4 years ago, 3 years ago, 2 years ago, 
last year, and bring it up again.
    My issue is, we are trying to do two things around April 
15th, and if we want to increase the number of people 
responding by mail, almost every American files something in 
their taxes at that same time period. While there have been 
some questions about, well, we have to be able to hit it 
exactly on the same date and such, if there are legal issues 
that we need to address as a Congress to be able to help 
establish that--but I cannot imagine that we would not get over 
100 million responses and get that checked off early and to be 
done with it and have fewer to be able to chase if it is 
connected to either their return--now they have a financial 
incentive to be able to get that done and in--or to be able to 
file it under penalty of law.
    It does not seem like it is as complicated as it is, but 
every year, I bring it up, and every year, I get we are either 
looking at it, or we are studying it, or it is too late. I am 
going to continue to bring it up because I think it is a 
multibillion-dollar question to be able to be resolved.
    I do have a question as well on resolving the definition of 
usual residence and how that is coming. I know that there are a 
lot of questions about what that really means to people, so 
what is your usual residence when you deal with prison 
population, overseas military, or United States citizens that 
are living temporarily overseas. What is the conversation on 
that currently?
    Secretary Ross. Do you want to take that?
    Mr. Jarmin. Thank you, Senator. I will take that.
    Usual residence for most folks means where they typically 
reside. I think that is a pretty subtle question. I think most 
people understand that.
    We do have some issues where folks with more than one house 
might respond multiple times, but we have some ways to address 
that.
    But, with military, I think the plan as of right now is 
that if you are deployed in an active duty area, you will be 
enumerated as of the base you are deployed from. If you are 
based overseas, it will be your home of record.
    Senator Lankford. OK.
    Mr. Jarmin. Prisons, right now we are planning to do what 
we have always done. There was a Federal Register notice that 
was out. We received 78,000 comments. We are still going 
through that. Until we have made another decision, the way we 
have done it in the past is to record them where they are 
imprisoned at.
    Senator Lankford. And for United States citizens living 
abroad?
    Mr. Jarmin. I think typically for citizens living abroad, I 
am not sure what the--I think they are typically where they 
lived--where they live regularly in the United States, but if 
they are permanent residents abroad, we do not enumerate them.
    Senator Lankford. Right.
    On the cybersecurity and the technology side of it, 
obviously it is a prime spot for hacking and gathering data. 
That is what I am hearing from Gene Dodaro is one of the 
primary concerns there, not only dealing with security and 
being able to manage it.
    I would also tell you on the flip side of it, it is a prime 
candidate for spearfishing campaigns for a hacker to be able to 
say, ``Hey, I am the Census Bureau,'' and to send you an email 
and say, ``Click here to complete your Census.'' If it looks 
just like your Census information and we are also doing 
Internet surveys, if there is any impression it will come 
through an email system, that is a very prime spot for people 
to be able to go gather information from a spearfishing 
campaign.
    I would raise that and say that is a concern now. That is 
not something that you can solve immediately, but in your 
advertising campaigns and such, to be able to let people know, 
``We will not contact you by email unless you have contacted us 
first,'' it would certainly be a big help. That will be an 
issue that I would assume someone is paying attention to but 
wanted to just be able to raise it as well.
    Thank you. I yield back.
    Secretary Ross. Perhaps it would be useful if I described 
some of the things that we are doing to try to ensure the 
security of the IT system. Would that be agreeable, Mr. 
Chairman?
    The Census Bureau publicly facing systems were tested and 
validated by external cybersecurity experts in 2017, and no 
weaknesses were identified in that process.
    Following best practice, though, to ensure ongoing security 
of our systems, we are conducting another security penetration 
test for the Internet self-response site, and this will be 
performed by the Department of Homeland Security (DHS) in 2018. 
We hope this will ensure that our security architecture is 
sound and that we are following our processes and procedures to 
minimize security threats by keeping the systems up to date.
    From a cybersecurity perspective for 2020, there are a 
number of specific things we have done. We have engaged the 
Federal intelligence community (IC) directly for proactive 
assistance. We have engaged the Office of Management and Budget 
(OMB) and Department of Homeland Security to provide better 
secure Internet connections capable of scaling for the Census 
2020, and we have worked with the Technical Integrator 
contractor to enhance the cybersecurity tools that the Census 
has at its disposal.
    Specifically, of the items currently being tracked in the 
cybersecurity actions for 2020, not 39 total, 80 percent, which 
is 24 of the 39, are considered upgrades from the Census prior 
cybersecurity procedure. The cybersecurity actions have 8 
nontechnical and 31 technical solutions. Seventy-five percent 
of the nontechnical and 60 percent of the technical ones are 
upgrades from previous actions, and we think that those will go 
a long way toward solving the problems. Nobody can guarantee 
100 percent cybersecurity on anything, so we are doing the best 
we can.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chair, and thank you, 
witnesses, for being here today.
    I want to talk in a moment about the particulars of the 
Census in rural areas and post disaster, but, Secretary Ross, I 
wanted to just start by clarifying a couple of things with you.
    As you are aware, former Trump campaign chairman, Paul 
Manafort, and his associate, Rick Gates, were criminally 
indicted yesterday. According to the indictment, Mr. Manafort 
allegedly used companies based in Cyprus to launder millions of 
dollars into the United States that were hidden from the 
Department of Justice (DOJ), the IRS, and others.
    It was also publicly reported that Mr. Manafort wired a 
million dollars to the United States from a mysterious firm 
through the Bank of Cyprus.
    Until you were confirmed Secretary of Commerce, you were a 
major investor in and Vice Chair of the Bank of Cyprus, which 
is the same bank Mr. Manafort reportedly used to transfer 
undeclared income from these offshore entities.
    Secretary Ross, did you have any knowledge of Mr. 
Manafort's transfers through the Bank of Cyprus?
    Secretary Ross. No.
    Senator Hassan. During your tenure at the Bank of Cyprus, 
did you ever discuss any financial matters with Mr. Manafort?
    Secretary Ross. No.
    Senator Hassan. Were you aware of any issues related to 
money laundering at the Bank of Cyprus when you were an 
investor there?
    Secretary Ross. We had procedures to try to monitor 
laundering and trying to prevent it. I am not aware of anything 
specific relating to Mr. Manafort.
    Senator Hassan. Thank you.
    Have you been contacted by the Special Counsel's office 
regarding this or any other matter?
    Secretary Ross. No.
    Senator Hassan. If contacted, would you cooperate with the 
Special Counsel's office?
    Secretary Ross. I would have no reason not to.
    Senator Hassan. Thank you very much.
    Now on to the Census issues. As you know, we all know how 
critical the Census count is for congressional apportionment 
and for States to access Federal funding. Therefore, this count 
is vitally important to people in the Granite State who rely on 
Federal funding for important projects and initiatives across 
the State.
    Given the geographic diversity of my State but also around 
the country and the many rural communities across our country, 
could you please speak to how the Census Bureau plans to reach 
rural areas specifically?
    Secretary Ross. As I mentioned before, we are going to be 
doing a lot more advertising than before. Second, if the 
experiment with the postal system works as well as we hope it 
will, that probably will be a very effective way to get to the 
rural communities because the postal system does do a pretty 
good job covering even rural communities. We are hoping that a 
combination of those two mechanisms.
    Plus, not everybody in rural areas lacks access to 
Internet. Given the Internet solution, may be another 
convenient tool to make it easier for those folks to reply. It 
is all of those things plus the faith-based and other community 
organizations cooperating with us.
    I do not know if you were here when I mentioned we will 
have over 250,000 relationships, whether it is a storefront 
with a little sign in it reminding people about the Census or 
something else.
    Finally, I mentioned about the experiment of putting kiosks 
in the post offices. Even rural areas have post offices.
    Senator Hassan. Right.
    Secretary Ross. A post office is probably a relatively 
frequently visited place in the rural communities.
    Those are changes that we have initiated for this Census, 
which should improve the ability to cover the rural areas.
    Senator Hassan. I thank you for that, and I think working 
with the Postal Service is a very good idea.
    I will say that it is becoming increasingly clear--we just 
had a field hearing in New Hampshire about broadband and 
Internet access. I think it is pretty clear that in rural 
areas, access to the Internet is over-counted in our current 
system because if one person has access in a Census block, it 
is considered that everybody does. The people I my home State 
would not want anybody to think that rural New Hampshire has 
adequate access to Internet.
    I think the post office initiative is really important, 
which is another reason that we do not want to be closing post 
offices in rural areas around our country.
    I wanted to move on to the issue of how we conduct the 
Census in light of the number of natural disasters that we have 
just been seeing and that we always have to be prepared for.
    We have seen recent hurricanes and tropical storms 
devastating Florida, Texas, Puerto Rico, and the Virgin 
Islands, and I just want to make sure that we address how these 
disasters will impact the U.S. Census count and what the Census 
Bureau is doing to accommodate these areas. Can you speak to 
how the Bureau plans to count people in these populations?
    Mr. Jarmin. Thank you for the questions, Senator.
    We dealt with this in 2010 with Hurricane Katrina----
    Senator Hassan. Yes.
    Mr. Jarmin [continuing]. And, Hurricane Rita, which 
displaced a large number of folks. We did work between the 2005 
hurricanes and 2010 trying to understand where people had 
migrated to using the American Community Survey (ACS) as well 
as administrative records. That gave us a pretty good idea, but 
then in areas where the addresses are questionable due to 
structures being damaged or other sort of infrastructure-type 
issues, we can put more boots on the ground, and we have 
contingencies for that in these operations--or put more boots 
on the ground to hand-deliver questionnaires and stuff to 
folks. We have thought through these types of----
    Senator Hassan. Does your latest budget request reflect 
that?
    Mr. Jarmin. Yes.
    Senator Hassan. Thank you very much.
    I yield the remainder of my time.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Secretary Ross, I think you agree--and I have heard your 
comments about the Census--that it is a very important process 
by which we count who is in our country, and the spirit behind 
it should be that everyone counts. No one should go uncounted, 
and no one should be invisible.
    To that end, I have a series of questions in terms of the 
resources that have been put into our ability to make sure that 
everyone is counted.
    In 2010, it is my understanding there were 3,800 
partnership specialists, but the current plan only has a budget 
for 800 specialists. Can you explain that cut, which is pretty 
drastic?
    Secretary Ross. Yes. I believe that that is not quite 
accurate. I believe there were 800 of the partnership 
specialists, and we have taken that number to 1,000. There were 
also some assistants that were brought in. Strangely, part of 
the stimulus package ended up going over to the Census and was 
used for some fairly junior people to support the partnership 
specialists.
    Census management has concluded that that was a relatively 
ineffective program, certainly cost ineffective, because the 
people were not very well qualified.
    Instead, what we are doing is increasing the number of more 
qualified people from 800 to 1,000. That is a 25 percent 
increase, and we think that will produce very good results.
    Senator Harris. Can you have your Department follow up with 
this Committee on what metrics you have applied to that 
analysis of what the change would be in their abilities? 
Because it is a pretty drastic change in the overall numbers, 
and I do agree with you that there were additional bodies put 
in because of the 2009 stimulus, which of course will not 
repeat itself in this budget year.
    Secretary Ross. Right.
    Now, remember, when we talk about the partnerships, the 
partnerships themselves do not do any enumerating. Their job is 
to encourage people to participate. It is not as though you are 
taking people away from being door knockers at all, and we 
believe that we will end up with the larger number of 
partnership relationships this year than we had before.
    But, as I said, a lot of them, it would just be the guy 
puts a sign in his window or puts some pamphlets or something 
of that sort, so it does not involve very active ongoing 
participation by the partner.
    Senator Harris. However, it is critically important that we 
put as many resources as possible into improving the confidence 
that people have about their relationship with their government 
and the importance of actually being counted.
    We are in an environment now where there are a lot of folks 
who are very distrustful of our government, distrustful of 
institutions, distrustful of leadership in government, and our 
community partners are probably more important than ever in 
helping us create those relationships of trust or even repair 
those relationships of trust so we can count the folks who are 
in our neighborhoods.
    Secretary Ross. Yes. With that in mind, we have started 
earlier on putting the specialists in place. We have 43 in 
place already. At this point in 2007, they had none in place. 
We are trying----
    Senator Harris. That is good news.
    Secretary Ross. It is not just a question of how many 
people. It is how long you have them in place----
    Senator Harris. Absolutely.
    Secretary Ross [continuing]. And, how long they are 
helping. We are trying to get a bit earlier start.
    Senator Harris. OK. Well, let us follow up on the metrics 
you have used to change the equation in terms of the numbers.
    There is also a statement that was made by you to the House 
Oversight and Government Reform Committee relating to the 
distrust in government and what we need to do in terms of 
making sure that everyone is aware of what our purpose is in 
counting for the purposes of the Census. At that Committee, you 
said, quote, you believe it would be illegal for the data to be 
used for any other purpose other than the purpose of the 
Census. Then, you went on to say, ``So unless someone commits a 
crime, I do not think that is ever going to happen,'' meaning 
you do not think that the data would be shared with anyone 
else.
    Secretary Ross. That is correct.
    Senator Harris. Do you understand that it is illegal to use 
the individual-level Census data for any purpose besides the 
statistical purposes of the Census?
    Secretary Ross. Yes. I think that is what you just quoted 
me as saying.
    Senator Harris. You said unless someone commits a crime.
    Secretary Ross. No, what I said is that if someone were to 
reveal the data for any other purpose, that would be a crime. 
If somebody becomes a criminal, there is not much we can do 
about that.
    Senator Harris. OK. Can you clarify that? Because there are 
folks out in the world beyond this room who believe that what 
you may have meant is something other than what you are saying 
you did mean. They are under the belief that you may have meant 
that if they committed a crime, such as a violation of the 
penal code, that their information would be shared with 
agencies beyond the purpose of collecting the numbers from the 
Census.
    Secretary Ross. All right. Well, then for the record, it is 
illegal to use Census information, the personal information----
    Senator Harris. I agree.
    Secretary Ross [continuing]. For any other purpose, and 
anyone who does so is a criminal. Is that clear enough?
    Senator Harris. If you could restate the purpose of 
collecting the numbers and the information, it is not to share 
that information with any other agency, if the folks that you 
are speaking with had committed a crime. Maybe I can be a 
little bit more straightforward about it. Let us make sure that 
it is clear that everyone will be counted. Their information 
will not be shared with law enforcement. If the folks that we 
are speaking with have committed crimes in their community, 
that information will not be shared with law enforcement.
    Secretary Ross. No. That is absolutely the case.
    Senator Harris. OK. I think we need to clear that up 
because I have received a lot of concern about that, statements 
of concern.
    Secretary Ross. Well, you have my testimony.
    Senator Harris. Would you be willing to have your agency 
send out some kind of statement to make that clear that the 
agency will not share Census information with other Agencies?
    Secretary Ross. I am reasonably sure that in the material 
we distribute to the homeowners, to the residents, that is 
covered. If it is not covered in detail, we will make sure that 
it is.
    Senator Harris. Senator Carper and I sent a letter to the 
Census on May 22nd asking information about why the Census 
decided not to include a question about sexual orientation or 
gender identity (SOGI).\1\ We have not received a response. Can 
you please tell me the status of that?
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Harris appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    Secretary Ross. Sure. Ron.
    Mr. Jarmin. I do not know the status of the response to 
that particular letter. I will certainly look into it, Senator.
    Senator Harris. Can you respond by the end of next week, 
please?
    Mr. Jarmin. We will do our best, yes.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Gentlemen, it is nice to see all of you.
    I do not know, Secretary Ross, if you have ever testified 
with Gene Dodaro before. Have you? Is this the first time you 
have ever testified in the same panel with the Comptroller 
General?
    Secretary Ross. In this panel, I think it is the first 
time. Yes, sir.
    Senator Carper. He has been before this panel, in the years 
I have been here, dozens of times. He never uses a statement to 
read from, never does. I have noticed over the years, though, 
there is a woman who sits right behind him. Whenever he speaks 
and testifies, I can see her lips move, and so I will not ask 
her to raise her hand. But, you are testifying today with one 
of the most----
    Secretary Ross. I truly do not think it is a ventriloquist 
dummy.
    Senator Carper. I do not know. You never know. She is 
pretty good if she is. [Laughter.]
    It is great to see you all.
    I remember when you were kind enough to stop by during your 
confirmation process, and we talked about your experience in 
college, where you told me that you had been an enumerator.
    Sometimes it is a little difficult. I remember in earlier 
Administrations, how hard it was to get that Administration, 
that President, that Secretary of Commerce, to actually focus 
on this as an issue. We ended up with a huge cost overrun, did 
not get especially good results, and it cost a lot more money.
    Tom Coburn, former Senator from Oklahoma, and I spent a 
number of years, along with our staffs, trying to make sure 
that that did not happen again, but actually having your 
attention, your interest in this is hugely important.
    We appreciate very much the help of GAO in helping the 
folks at the Department and folks in the Census Bureau to 
figure out how to do this well.
    I think you may have mentioned before--I have been bouncing 
from place to place today, Mr. Secretary, but I understand that 
you may have mentioned while I was out of the room a potential 
partnerships between the Census and the Postal Service that 
might serve both our interest in getting a better Census for 
less money and also maybe would provide the Postal Service with 
some interesting and helpful, productive work to do.
    I do not want you to go into it in great depth, but could 
you just give me the CliffsNotes version of that, what you 
said?
    Secretary Ross. Yes. We are in negotiations with the USPS 
to see if we can work an arrangement and work it in time for a 
test in Providence. We are doing an end-to-end test in 
Providence this spring.
    What we hope the outcome would be is that when the postal 
system worker has finished the day's work, would become a 
temporary employee of ours on our payroll and then conduct the 
enumeration process. Our feeling is, first of all, those are 
people with very good institutional knowledge of occupied and 
unoccupied residences. I do not think anybody views the postal 
worker as a threatening figure coming to their property, and 
we, therefore think it will help overcome some of the issues 
that Senator Harris and others have raised about people being 
reluctant to deal with the Federal Government. We think that 
could be a very good help.
    In addition, we are planning an experiment as well putting 
kiosks with the Census forms in each post office. That was 
going to be especially helpful in rural communities, perhaps 
with the tribal reservation, things of that sort. We are trying 
to use additional systems for the interaction, and I am 
particularly intrigued, if we can make the postal thing work, 
it probably would be the most cost-efficient way to improve 
accuracy of the Census.
    Senator Carper. Good. Well, good for you, and I am pleased 
to hear those ideas and that partnership.
    All right. Speaking of partnerships, one of the great 
partnerships that I witnessed from over the years between 
Cabinet Secretaries and GAO is about every 2 years, at the 
beginning of a Congress, GAO publishes their high-risk list, 
high-risk ways of wasting money. You may be familiar with it.
    Some Cabinet Secretaries, some Deputy Cabinet Secretaries 
on a fairly--it could be monthly, could be quarterly basis, 
actually sit down with the Comptroller General and go through 
the items on the high-risk list that pertain to their 
Department and say, ``What do we have to do to get off of your 
high-risk list?'' It provides for a great collaboration and 
partnerships that some Departments take advantage of, I think 
to the benefit of taxpayers. Some do not. But, I just want to 
plant that seed. I know you are the kind of person who is 
interested in finding ways to save some money and get a better 
outcome in the end.
    Secretary Ross. We are trying to improve the quality of the 
relationship, both with the Inspector General (IG) office and 
with the GAO office.
    Senator Carper. That is great. Yes.
    Secretary Ross. I think we have made some tangible process 
in that regard.
    There were a total of 84 recommendations that have been 
made earlier by the GAO, and of those 84, 48 have been closed, 
36 are open, and of the 36 that are open, 7 have action plans, 
but the due date is in the future. That leaves 29, and as to 
those, we have submitted documents which the GAO is reviewing. 
They are pretty voluminous documents.
    Some of them, for example, will be the new life-cycle cost 
estimate, which itself is a pretty huge document.
    Senator Carper. OK.
    Secretary Ross. It is going to take a little while for them 
to review.
    Senator Carper. Well, good. That is encouraging.
    A question now here. One of the major goals I hope that we 
can achieve with this hearing is having both you, Mr. 
Secretary, and our Comptroller General, GAO, help us identify 
those milestones that we and the Congress, at least for now, 
need to monitor so that we will know whether the Census is on 
track.
    I would just ask first of the Comptroller General and then 
maybe of you, Mr. Secretary, or Ron, what do we need to be 
monitoring in terms of milestones?
    Mr. Dodaro. There are set milestones for the end-to-end 
test that is being conducted that started last August and will 
end in April 2019. There are milestones within that end-to-end 
test that I think are very important.
    For example, the Bureau just finished the address 
canvassing part of it. They will be moving into other phases of 
it down the road, and I would think within those milestones 
that coincide with the end-to-end test would be the perfect 
opportunity to monitor progress. Then having the culmination of 
a progress check before the final decisions in April 2019 going 
into the 2020 Census would be appropriate.
    I would suggest that we chart it with the already 
established milestones that the Commerce Department and Census 
have for the end-to-end test.
    Senator Carper. Dr. Jarmin.
    Secretary Ross. I agree with that.
    Senator Carper. You do? OK, good. Thank you.
    Dr. Jarmin, anything you want to add?
    Mr. Jarmin. No. I absolutely agree with that, and I think 
it is important for everyone to review the results of the end-
to-end test and everyone be on board to what the final design 
decisions are going to be for the 2020 and to have partnership 
and outreach in place and be ready to hit the ground running 
once the clock turns over to 2020.
    Senator Carper. I want to say, Mr. Chairman, and to our 
acting Ranking Member, whose birthday was yesterday, one of the 
joys for me in the work that we do here is actually when we 
work together for a good purpose and also when, in this case--
the Comptroller General is an independent watchdog, but to have 
the Administration work in collaboration with GAO and the 
Inspector General, that is all very encouraging. Only good 
things can come from that, so keep it up.
    Thank you.
    Chairman Johnson. Speaking of birthdays, Dr. Jarmin got the 
present of having his birthday today as well, getting to 
testify. [Laughter.]
    Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and to the 
witnesses, thank you for your testimony today. It is a very 
important Census. This is an incredibly important program for 
the Federal Government. We have to get it right, and thank you 
for all of your efforts in that regard.
    I have a few questions related to your work in the Census, 
but before I ask those questions, I have a couple of other 
issues that are very important to the folks in Michigan. Mr. 
Secretary, if I could just raise these with you briefly and 
then go to some Census questions.
    The first one I want to address is something that you and I 
spoke about in my office prior to your confirmation. I also 
brought it up in the confirmation hearing, and that is the 
ability of the Commerce Department to engage in self-initiated 
investigations, trade practices, and enforce those trade 
agreements.
    Currently, I am working on some bipartisan legislation, 
working with one of my Republican colleagues to help address 
this issue. It creates a self-initiation task force that would 
be directly under your purview as the Secretary to help track 
and identify cases for a referral for antidumping 
investigation. This is especially important, as I know you are 
well aware, for small businesses that face trade abuses but 
lack the resources to go after those folks because of a very 
lengthy and a very expensive process of petitioning the 
government.
    I understand that our staffs are working. They are in 
touch. We are expecting some feedback from them, but I 
certainly hope to get your support. I know this is something 
you were interested in.
    Secretary Ross. As I think you know, I am a great proponent 
of self-initiation not only for the reason you mentioned, that 
in many industries where the companies are small, the $2-
million-or-so cost of their initiation can be a very daunting 
issue.
    But, there is also another reason for it. Many of the 
companies that are victimized here also have operations in the 
countries of the perpetrators, and they are very concerned 
about retaliation by those host jurisdictions. Self-initiation 
also has the therapeutic effect of being Commerce Department as 
a buffer between the potential petitioner and the country who 
is the bad actor.
    In aggregate figures, we have brought 48 percent more trade 
cases so far this year than was done during the same period 
under the prior Administration, and I think that speaks louder 
even than words about our determination to enforce proper 
trading rules.
    I think you will also note that while it has become a 
little political controversial, we have also been imposing 
quite large tariffs where they are warranted by the facts, 
particularly where the offending company refuses to cooperate, 
and we have to rely on the adverse status applied by the 
petitioner or in the case of self-initiation by ourselves.
    We are moving very hard to deal with the offenders. It is 
so hard getting trade cases, anyway, but it is very important 
that we enforce them and very important, too, that we collect 
them.
    I think you are aware the President has issued an Executive 
Order (EO) that makes it much more likely that we will be able 
to collect the actual tariffs. When I came to office, I learned 
to my horror that there are literally billions of dollars of 
antidumping and countervailing duties that were never collected 
because they were letting the importers use shell companies, 
and by the time the case was concluded, there was nothing 
there. There was nobody to extract the fine from.
    We are trying to tighten up every aspect of it, but on the 
narrower issue of self-initiation, I am 100 percent on board 
with that idea.
    Senator Peters. Right. That is great to hear, Mr. 
Secretary.
    If you will indulge me, I have one other trade issue, and I 
appreciate all your comments on trade-related issues. But, I 
have one more that I must mention.
    As I am sure you are aware, I sent a letter to you recently 
along with a number of my colleagues urging that you and the 
President come to a prompt conclusion on the steel and aluminum 
232 reviews. I know the steel industry is something you know 
very well, Mr. Secretary, and I think you also know that delay 
is causing some real harm to American workers.
    I think we are especially alarmed at comments that you made 
that suggested you may want to wait until after tax reform 
passes. It is a topic that I think is unrelated to this trade 
issue, and it may take some time to resolve that. I certainly 
hope that you are able to address this issue sooner rather than 
later. I am certainly hearing a great deal about it from both 
manufacturers and workers in Michigan.
    Secretary Ross. I think we recognize the full parameters of 
the steel situation, and I am eager to get things going. We 
have to conform, however, with Administration policies, and we 
are.
    Senator Peters. Very good.
    Now to a Census-related question, Mr. Secretary. Michigan, 
as I know you know as well from your work in Michigan, has a 
very vibrant Middle Eastern-American community who have been 
advocating for decades for the addition of a Middle Eastern and 
North African (MENA), race and ethnicity category to the 
Census.
    Earlier this year, the Census Bureau, I think, made a very 
positive step by approving the category for the 2020 Census. It 
now waits final approval by the Office of Management and 
Budget.
    This category will allow for a more accurate representation 
of these communities in our country and economy, and I think it 
will also provide or I should say it will ensure that there is 
equitable allocation of government services for these 
communities, particularly such programs like English as a 
second language program.
    However, some in the community have expressed concern, and 
we have heard other concerns, I think, from some of my 
colleagues here today about the potential use of this data for 
purposes other than statistical information. I would just like 
you to commit, Mr. Secretary, that the information that is 
going to be collected by the Census Bureau for the 2020 Census 
regarding Middle Eastern-American communities will be used for 
statistical purposes only and will fully adhere to the privacy 
protections under Title 13.
    Secretary Ross. That is the law, and I intend to uphold the 
law.
    Senator Peters. Thank you, Mr. Secretary.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    Thank you for testifying here today.
    The Census is something required by the Constitution, in 
fact, and so it is of critical national importance. It is 
necessary to have good data in order for equitable 
representation in Congress. In fact, if I asked a trivia 
question--and I will not ask it. It is rhetorical. But, which 
congressional district is the largest congressional district by 
population in the United States out of 435? The answer is 
Montana, which usually is not the first answer by most, but we 
have 1,040,000 Montanans. We used to have two Members of 
Congress. We have one today like North Dakota.
    It is important because this Census data is important, 
because it determines congressional representation but it is 
also important for government to efficiently use the taxpayer 
resources, which of course are very limited.
    I understand the latest cost estimate for the 2020 Census 
is over $15 billion. Even small inefficiencies can lead to a 
significant waste of taxpayer dollars.
    Secretary Ross, it is good to see you again. Thank you for 
coming up to the Hill today. While there are years of 
unimplemented GAO and IG recommendations that are left over 
from the last Administration, one of my key concerns is the 
protection of Americans' personal information.
    The Office of Personnel Management (OPM) hack compromised 
over 20 million Americans. In fact, I was in the private sector 
for 28 years and never received a letter from my human 
resources (HR) department until I became an employee of the 
Federal Government because I was elected to Congress, and I got 
my first letter saying my personally identifiable information 
(PII) had been compromised.
    But the Census Bureau holds PII on nearly every American. I 
understand a Census contractor was compromised just this past 
January.
    The question is, What are you doing to boost cybersecurity 
and ensure that Americans' data is protected and used as 
intended by the Constitution?
    Mr. Jarmin. Thank you, Senator.
    We take the cybersecurity and physical security, for that 
matter, of the data assets that are entrusted to us by the 
American public and the American business community very 
seriously. The support, while many of our surveys and Censuses 
are mandatory by law, it is largely the voluntary response of 
our citizens and our businesses that provide the data that we 
use for our purposes, and without their trust and their 
willingness to share that information with us, we are sort of 
in a pickle.
    We have put cybersecurity sort of front and center for our 
preparations for the 2020 Census. The Secretary already 
discussed some of the things we have been doing earlier today, 
39 new cybersecurity measures that are new to the Census 
Bureau. We tested our publicly facing systems earlier this year 
with the help of folks from the Department of Homeland 
Security. A clean bill of health, but we are staying on top of 
this constantly. This is something that we are going to be 
working on with other experts in the government and the private 
sector to ensure that we are doing everything that we can to 
ensure that the data are secure.
    Senator Daines. Thank you.
    I remember when we had the compromise with the OPM a while 
back, and being involved in some of their briefings. I came out 
of a cloud computing business, and my jaw dropped as to how 
archaic, antiquated, slow-moving--it is typical Federal 
Government bureaucracy, but it is good to have some new 
leadership, truly.
    Secretary Ross, I would like to shift gears and discuss 
softwood lumber and the dispute currently between the United 
States and Canada.
    Our forests in Montana and our lumber mills create some of 
the highest-quality lumber in the world, and if they provide a 
level playing field, of course, there is great potential for 
economic growth in Montana.
    We just came through a horrible fire season in Montana. We 
have lost a lot of our mills. When I was a kid growing up in 
Montana, we had 30 active sawmills. Today, we are down to 
eight.
    I greatly appreciate your leadership on this issue, 
Secretary Ross, your Department's work on it, and its 
preliminary determination that Canadian producers have been 
dumping in the United States. But, I have heard concerns about 
some of the delays in finalizing these duties.
    The question is, where do you see this going and would you 
commit to finalizing these duties as expeditiously as possible?
    Secretary Ross. As you are aware, our preliminary finding 
was that they would pay tariffs equal to about $1.1 million per 
year, which is a pretty large tariff by anybody's imagination.
    Then ensued some negotiations, which we helped to initiate 
between the American Lumber Coalition, which was the 
petitioner, and the Canadian producers and the Canadian 
government. Within the next day or two, we should find out 
whether those negotiations are going to actually bear fruit and 
have a permanent solution contractualized or whether we will 
simply revert to the tariff and go on as we had started out 
doing.
    We are at the decisionmaking point in time, and as I say, 
it will be a matter of days, not weeks, before that gets 
resolved.
    Senator Daines. Right. Thank you. It is always refreshing 
to hear the word ``days'' expressed up here on Capitol Hill 
versus weeks or years or decades or millenniums, it seems like 
sometimes.
    Secretary Ross. No, days.
    Senator Daines. Thank you.
    Secretary Ross. Small number of days.
    Senator Daines. I appreciate it.
    Secretary Ross, you are managing a number of other trade 
disputes and agreements. I realize your to-do list is quite 
long. We need to get more of President Trump's team in place to 
fight for this level playing field for American companies both 
at home as well as abroad.
    I was very disappointed last week when Democratic leader 
Schumer was going to block nominees to the Department of 
Commerce, some of whom will focus on international trade. How 
have these critical vacancies impeded the Department's work on 
behalf of the American people?
    Secretary Ross. Of the nominees, one particularly, Gil 
Kaplan, is an extremely experienced party, and trade 
enforcement and international treaties would be the main thing 
he would be doing. That one alone has denied us a very senior 
person who could be very useful with all the things that are 
going on at present. I think it is unfortunate that for 
unrelated reasons, reasons having nothing to do with the 
qualifications of the nominees, they passed through the 
Committee with very good results. I think they were both 
unanimously voted out of Committee, if I am not mistaken.
    Senator Daines. Yes. Secretary Ross, thank you. I am out of 
time.
    The tragedy here is that the people that get hurt here are 
the hardworking American people, and the problem you have is 
when you have highly qualified individuals who are willing to 
do these jobs, you do not have all day to wait for them. They 
can go find other work.
    And so, I want to thank the nominees for their patience and 
tell them to hang in there, and we will do all we can working 
with you to get these nominees through the U.S. Senate.
    Secretary Ross. Thank you because it is hard to have people 
be in a state of suspended animation month after month.
    Senator Daines. It is.
    Secretary Ross. I think we owe them a decision one way or 
the other.
    Senator Daines. We do. If we want to have the best and 
brightest in public service, we need to treat them, frankly, 
with more respect and move them through in a more timely 
manner.
    Thank you.
    Secretary Ross. Thank you, Senator.
    Chairman Johnson. Senator Heitkamp.
    Senator Heitkamp. Thank you.
    Just a couple of points, Secretary Ross. You talked about 
kiosks in post offices. Frequently, the marginalized 
populations in our urban areas visit the library a lot, and 
working with libraries and communities can be very 
instrumental. They are trained to do outreach with a lot of 
populations. Have you developed any relationships with the 
public library system?
    Secretary Ross. Quite a few of the libraries are part of 
the 250,000-odd relationships that we have.
    Senator Heitkamp. Yes. I would just recommend that if you 
really want to look at a plus multiplier on marginalized and 
disenfranchised populations, homeless populations, chances are 
you are going to find a lot of those folks in the public 
library. It is where they have access to the Internet. They 
would not otherwise have it.
    There are also folks there who if we were able to do some 
collaboration and some cooperation in terms of money, you could 
be very helpful to the public library system as well. I would 
just make that recommendation.
    Secretary Ross. We have been trying to do that.
    Senator Heitkamp. Yes. I think you will find them very 
willing. Frequently, the library staff spends a lot of time 
registering people to vote. It is where people go who feel like 
they do not know how to manipulate kind of government systems.
    Gene, you testified that your office responsibility for 
overseeing the technical integration contractor is severely 
understaffed, that the office is understaffed. I am wondering 
what gets in the way of filling those critical positions, and I 
am concerned about, number one, whether the Federal hiring 
freeze delayed it unnecessarily and do we need to take a look 
at hiring systems for the Census.
    I think we are all in a period of low unemployment. We are 
at that spot, and in changes in the workforce where you used to 
be able to hire temporary workers, that would be older, 
seniors, or women who worked outside the home or the second 
wage earner, which would be much more part-time. We do not have 
that workforce anymore. What do we need to do?
    I guess this would be a question for both of you: What do 
we need to do in terms of recruiting workforce?
    Secretary Ross. One of the things we changed in the budget 
was we raised the amount that we think we will have to pay per 
hour.
    Senator Heitkamp. Mr. Secretary, right now what is that 
amount per hour?
    Secretary Ross. $17.50, which I think for part-time work is 
a pretty good number, and it is certainly higher than what they 
were using.
    Senator Heitkamp. This is W-2 income, right? It is not 1099 
income?
    Secretary Ross. Yes. Oh, sure. Census is not going to have 
people off the books.
    Senator Heitkamp. OK. Gene.
    Mr. Dodaro. One thing I would suggest that the Department 
consider as well, Secretary Ross mentioned that they were using 
off-duty Postal Service people----
    Senator Heitkamp. Yes.
    Mr. Dodaro [continuing]. And we should see how that works. 
But another possibility, would be to hire retired Postal 
Service employees because in using existing Postal Service 
employees, their salaries are three times the cost of a Census 
worker.
    But, Congress would have to give or OPM could give a waiver 
authority to the Secretary to waive the offset for the retired 
worker's annuity. Right now, if you are a retired Federal 
employee, you are receiving an annuity. If you take another 
job, you get your annuity offset, but if that is waived, then 
potentially----
    Senator Heitkamp. Incentive.
    Mr. Dodaro [continuing]. You could bring in retired postal 
employees at a lower rate. You could pay them the Census rate 
to augment their retirement income, and, with an appropriate 
waiver, it would not affect their annuities. You would get the 
biggest benefit with the least cost.
    Senator Heitkamp. I do not want to be the head of the 
Census Bureau, but I want to offer a couple suggestions. In 
addition to postal workers, you have retired United Parcel 
Service (UPS) or off-duty UPS, Federal Express (FedEx) workers. 
Those folks know almost as much in North Dakota about--
especially in rural areas, where people live because they 
deliver to all these places.
    Mr. Dodaro. Right.
    Senator Heitkamp. They could be a very helpful group as 
well in addition to the Postal Service.
    Secretary Ross. It could very well be. It is a little bit 
harder to find the retirees than it is to find the active 
employees because a lot of them no longer stay in the area 
where they were delivering mail.
    Senator Heitkamp. I would tell you that is probably not 
true in North Dakota. Not true in rural areas.
    Secretary Ross. I also think that making too many changes 
at one time can lead to a lot of confusion. If we can pull off 
the postal workers this time, I think that will be a very big 
achievement and something that one could build upon in the 2020 
Census.
    Senator Heitkamp. OK.
    I want to ask one question for Senator McCaskill, and it 
has to do with the Integrated Partnership and Communication 
Program. We were supposed to see the final plan delivered in 
June. We do not have it yet. When can we expect that we will 
receive that plan?
    Mr. Jarmin. Senator, we released that Friday at our 
quarterly program management review.
    Senator Heitkamp. Well, I am going to tell Claire, do not 
give me a question there is already an answer. [Laughter.]
    Mr. Jarmin. It is available online.
    Senator Heitkamp. OK.
    Mr. Jarmin. Can I just add one more thing?
    Senator Heitkamp. Yes.
    Mr. Jarmin. When we were talking about the staff shortage 
for managing the TI contracts, the additional request for $187 
million in this fiscal year, that is one of the areas we are 
trying to address, is some of that money was earmarked for, 
bolstering our program management office, and so that is 
something we are trying to address with this extra request.
    This deep dive that we have done sort of exposed these 
things enough where we want to----
    Senator Heitkamp. I can just tell you in North Dakota, you 
are going to have a heck of a time hiring Census workers.
    Chairman Johnson. Even though the retirees do not flee 
South? [Laughter.]
    Thank you, Senator Heitkamp.
    I asked Gene this question, and I want to ask Secretary 
Ross and Dr. Jarmin the same thing. What is your primary 
concern? Again, we have had a lot of really good questions, a 
lot of good input here. I appreciate it. What is the one thing 
you are primarily concerned about? What keeps you up, awake at 
night, based on the 2020 Census?
    Secretary Ross. It is actually two things. One is the task 
of hiring 500,000 people on a temporary basis. I was not here 
in 2010, obviously, but in that environment, it would have been 
a lot easier hiring people than now, particularly qualified 
people.
    The other part is just the enormity of the task, the 
technological task, the changes, and the ramping up. This would 
be a major challenge for a huge well-run American company, let 
alone for a government agency that really only functions in 
this capacity once every 10 years. It is a very tough 
combination of things.
    But, the only way we think we can respond is by intense 
attention to detail, intense attention to focus, and really 
leaning in on the process. That is what was not happening so 
much before. I promise you, it is happening right now.
    Chairman Johnson. There is not one manufacturing company 
that I visited in 7 years traveling around the State of 
Wisconsin that could hire enough people. If you could get that 
word out to the rest of the members of the Administration, we 
have a real worker shortage in this country, certainly in 
Wisconsin, probably North Dakota and elsewhere as well. I share 
your concern. Dr. Jarmin.
    Mr. Jarmin. I would say my number one concern is to make 
sure that we have enough resources to finish the 2018 test and 
to make sure that everything is ready to go when we start 
hiring those 500,000 people, so just making sure that we are 
ready to go when it is time to hit the start button.
    Chairman Johnson. Let me tell you one of my concerns, and I 
wrote to Secretary Ross on this on June 5th. In 2016, the 
Bureau awarded an advertising contract that included a 
subcontractor with close ties to partisan politics. The 
contract at the time was awarded, quote, ``for services and 
multiple communication areas to support building awareness and 
promoting self-responses for the 2020 Census.
    On August 24, 2016, the Bureau awarded the contract to 
Young and Rubicam and several named subcontractors, including 
Civis Analytics.'' Civis describes itself, quote, ``as a 
platform for hope and change,'' that started, quote, ``in a 
mission for President Obama's reelection campaign.'' The firm's 
Chief Executive Officer (CEO) stated that, quote, ``The Obama 
reelection campaign set the values of the company,'' and that 
Civis would work exclusively on Democratic campaigns.
    Civis' clients included Organizing for Action, a group that 
grew out of President Obama's campaign machine, and Rural 
Action, a group created to support Obamacare and President 
Obama's 2012 election campaign.
    I have heard word that the Census is going to potentially 
use statistics rather than count and use a more sophisticated 
campaign. We are talking about these partnership programs which 
make an awful lot of sense, but if we have already entered into 
contracts, awarded contracts with organizations that are allied 
with such partisan politics, that really concerns me.
    Secretary Ross, again, I wrote this letter.\1\ We have not 
received a formal response, but I will just ask you: What kind 
of controls are in place with these contractors that we are 
utilizing for the Census?
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Johnson appears in the 
Appendix on page 81.
---------------------------------------------------------------------------
    Secretary Ross. OK. Well, that is quite a lot. This has 
been an area of very intense focus on our part. They were, as 
you point out, subcontractors to Young & Rubicam. Their 
function is simply to provide some data from bases that they 
have and merge those data streams into other data streams that 
Census already has.
    Here is the way that we are having it work. It is called 
the Civis Household Database, and that is provided in support 
of the Integrated Communications Campaign. Their input is 
solely to help us figure out what kinds of advertising to use 
to try to reach different parts of the population.
    Second, they contain data on approximately 240 million U.S. 
adult residents, and Civis estimates that their coverage of 
that data is somewhere between 85 and 95 percent of all adult 
individuals.
    There are three primary ways to make sure that this 
information is not misused. One, no partisan information is 
used at all in any part of the Integrated Communications 
Campaign. Second, no Civis employees currently working on any 
political campaign are permitted to work on the Census project. 
Third, Title 13 obligations obviously extend to all employees, 
including the Civis employees, and we have made that very clear 
to them.
    Neither the team, Young & Rubicam, nor the Census Bureau 
will have access to partisan information during the 
development, the planning, or execution of the Census campaign. 
Just as Civis now segregates their political team from the 
government team, Civis also segregates political and 
governmental data.
    Once their information gets into our system, they really 
have no access to it, and they have no unfettered access to our 
systems and our data at any time. Their function is to supply 
some data and answer questions that arise from the Census team 
and from other parts of Young & Rubicam.
    Their work is very largely completed at this point. We have 
had pretty much the data inputs from them. I do not think they 
will be all that present going forward, but those are the 
measures that we have taken to them.
    Now, the sources of data that they use are interesting. One 
is called TargetSmart. One is model data that would derive 
mathematically from the Civis model itself. Third, they use a 
bunch of publicly available Federal data from the Center for 
Medicare and Medicaid Services; the Federal Aviation 
Administration (FAA) Pilot Certification Registry; Federal Data 
Center; the Census' own 2010 public data; the Public Use 
Microdata Sample, the PUMS from the 2011 Census; County 
Business Patterns, the U.S. Customs and Border Protection (CBP) 
from Census; the American Community Survey; Planning Database; 
County Health Rankings; IRS; and Bureau of Labor Statistics 
(BLS); as well as Social Security Administration (SSA) 2013 
data; the Federal Bureau of Investigation (FBI) crime 
statistics from 2013; U.S. Department of Agriculture (USDA)----
    Chairman Johnson. OK. We have a vote going on.
    Secretary Ross. OK.
    Chairman Johnson. You can answer my letter. I am very 
pleased to hear that you are fully aware of this. We do not 
want partisanship on either side of the spectrum.
    Secretary Ross. We agree with that.
    Chairman Johnson. I am comforted by your answer that you 
seem to be fully aware of it, on top of it, and I would just 
encourage you to do so.
    Gene, I really do appreciate your suggestion on the postal 
workers. I have already leaned over to my staff and said that 
is a piece of legislation that we maybe want to propose, so I 
want to work with you on that.
    I want to thank, again, Secretary Ross, Dr. Jarmin, and 
Gene on your excellent testimony. We will continue to work on 
this. This is incredibly important that we get the 2020 Census 
correct in a completely nonpartisan fashion for all the 
purposes the Federal Government uses it for.
    With that, the hearing record will remain open for 15 days 
until November 15th, 5 p.m., for the submission of statements 
and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 4:14 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]


</pre></body></html>
